HHS/OIG-AUDIT--FDA Handling of Issues Related to Conjugated Estrogens (A-15-96-50002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Handling of Issues Related
to Conjugated Estrogens," (A-15-96-50002)
May 16, 1997
Complete Text of Report is available in PDF format
(1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the Food and Drug Administration's
(FDA) handling of issues related to conjugated estrogens (Premarin), a commonly
prescribed product for menopausal symptoms and the prevention and management
of osteoporosis. This review was performed at the request of the Chairman, Subcommittee
on Oversight and Investigations, House Committee on Commerce.
The FDA is the Federal agency responsible for approving applications to market
new drugs, new indications for already marketed drugs, and generic versions
of brand name drugs. Conjugated estrogens products represent a class of marketed
drugs used primarily for the treatment of menopausal symptoms in women and for
the prevention and management of osteoporosis, a crippling disease that causes
thinning of the bone. Wyeth-Ayerst is a drug manufacturer that markets: (1)
Premarin, approved in 1942, which is made from the urine of pregnant mares and
is the Nation's only conjugated estrogens product; and (2) Prempro, approved
in 1994, which combines Premarin and another hormone called progestin. At this
time, there are no approved applications to market generic versions of these
brand name drugs.
Once a drug is approved, drug manufacturers are required to obtain FDA's approval
before adding or deleting an ingredient, or otherwise changing the composition
of a drug product, other than deletion of an ingredient intended only to affect
the color of the drug product. Current regulations require that when there is
a change in the manufacturing process, including a change in product formulation
or dosage strength, beyond the variations provided for in the approved application,
drug manufacturers are required to show that any reformulations are bioequivalent
to the approved product.
The FDA uses a process called the citizen petition to allow anyone--individuals
or companies--to request the agency to make changes to its regulations. In November
1994, Wyeth-Ayerst submitted a citizen petition requesting FDA to: (1) recognize
an ingredient of Premarin--delta 8,9 (dehydroestrone sulfate (DHES))--as an
essential (but not an active) ingredient in Premarin; and (2) not approve any
generic version of Premarin that does not contain DHES. The firm amended its
petition in December 1996 to request FDA to recognize DHES as an active ingredient.
To date, FDA has not made a decision as to whether to approve Wyeth-Ayerst's
citizen petition request. However, on May 5, 1997, FDA's Director, Center for
Drug Evaluation and Research (CDER), announced that, because the active ingredients
of Premarin have not been adequately defined, the agency could not at this time
approve generic applications for synthetic versions of conjugated estrogens.
The FDA had been reviewing two such applications since 1994 and 1995, respectively.
The House Committee on Commerce, Subcommittee on Oversight and Investigations,
has raised concerns that Wyeth-Ayerst may have made misrepresentations in its
submissions to FDA regarding Premarin, and that FDA may have failed to adequately
review such submissions. The Subcommittee requested the Office of Inspector
General (OIG) in July 1996 to answer specific questions regarding: Premarin,
another Wyeth-Ayerst product called Prempro, the citizen petition related to
Premarin, and generic versions of Premarin.
Our objective was to answer the Subcommittee's questions in the following three
areas:
Premarin: The questions focused on possible unapproved reformulations;
whether the reformulations were bioequivalent; and the basis on which FDA
allowed the continued marketing of Premarin.
Prempro: The question focused on the basis on which Wyeth-Ayerst
won approval for Prempro's use in the prevention and management of osteoporosis.
Wyeth-Ayerst's citizen petition regarding Premarin and generic versions
of Premarin: The questions focused on FDA's examination of data and claims
made in Wyeth-Ayerst's citizen petition and the agency's handling of brand
name and generic versions of Premarin.
Premarin: According to FDA, there have been no unapproved formulations
of Premarin. Regarding the issue of bioequivalency among the formulations, however,
we found that FDA does not have evidence demonstrating that the currently marketed
formulation of Premarin is bioequivalent to the version tested for osteoporosis
in the late 1970's. This is because no in vivo (i.e., in the living body) bioequivalence
requirement was in effect for conjugated estrogens at that time. Concerned about
lack of bioequivalency data and the continued safety and effectiveness of Premarin,
FDA in 1993 directed Wyeth-Ayerst to conduct a new dose-ranging study of the
drug. As of January 1997, 818 women, or about 30 percent of the total planned
enrollment of 2,688, have entered into the multi-year study.
Prempro: The Premarin tablet formulation used in the combination drug
Prempro (Premarin/medroxyprogesterone acetate) slightly differed from the marketed
Premarin, but Wyeth-Ayerst submitted in vivo bioequivalence data to demonstrate
that the new and currently marketed formulations were bioequivalent.
Citizen Petition and Generic Versions of Premarin: The FDA is in the
process of reviewing the claims and data associated with Wyeth-Ayerst's citizen
petition, which was submitted to the agency over 2 years ago. The FDA has thus
far found deficiencies in the design of studies submitted to support Wyeth-Ayerst's
claims, but no misrepresentations in data in the firm's studies have been identified.
Regarding the Subcommittee's concern that FDA may have held generic drug firms
to a higher standard than the brand-name maker of Premarin, Wyeth-Ayerst, we
noted that the agency was also concerned about possible differing standards
in terms of bioequivalency requirements for the generic and brand name versions.
However, upon further investigation, FDA determined there were no unapproved
reformulations of the brand name Premarin that would have required Wyeth-Ayerst
to submit additional bioequivalency data.
Beyond the Subcommittee's specific questions, we identified other concerns
regarding the citizen petition process--namely that the process has been extended
for an excessive period of time in the Wyeth-Ayerst case; and FDA does not have
policies and procedures governing such an important process, one which can impact
the marketability of generic versions of Premarin.